CU..JC OF THE NEBRASKA SUPREIW- COURT
AND NEBRASKA COURT OF APPEALS
2413 State Capitol, RO. Box 98910
Lincoln, Nebraska 68509-8910
(402) 471-3731
FAX <402) 471-3480
September 14, 2020
Daion J Williams #76527
Penitentiary
PO BOX 22500
Lincoln, NE 68542-2500

APPENDIX

A

IN CASE OF: A-20-000227, Williams v. Wilhelm
TRIAL COURT/ID: Lancaster County District Court CI20-591
The following filing: Petition Appellant for Further Review
Filed on 08/24/20
Filed by appellant Daion J Williams #76527 .
Has been reviewed by the court and the following order entered:
Petition of Appellant for further review is denied.

J
Respectfully,
Clerk of the Supreme Court
and Court of Appeals

!

www.supremecourt.ne.gov

Mil

CLcRK OF THE NEBRASKA SUPREiW COURT
AND NEBRASKA COURT OF APPEALS
2413 Stale Capitol, RO. Box 98910
Lincoln, Nebraska 68509*8910
(402) 471-3731
FAX <402) .471-3480

SccH

July 27,

2020

Daion J Williams #76527
Penitentiary
PO BOX 22500
Lincoln, NE 68542-2500

APPENDIX B

IN CASE OF: A-20-000227 Williams v. Wilhelm
TRIAL COURT/ID: Lancaster County District Court CI20-591
The following filing: Mot. of Appellee for Summary Affirmance
Filed on 06/19/20
Filed by appellee Michele Wilhelm
Has been reviewed by the court and the following order entered:
rt.

'Appellee’s motion for summary affirmance sustained. See Nebj__C . R.
App. P. S 2-107 (B) (2) . A writ of habeas corpus will notlie to
disChargeTa person from a sentence of penal servitude where the court
imposing the sentence had jurisdiction of the offense and the person
of the defendant, and the sentence was within the power of the court
to impose—Sande-rs-v-^—Brakes _2H5—Neb_1_ 3 74, 888 N.W.2d 514 (2016). See
f. -NebTRev ,_Stat. 43-246.01(3) (Reissue~~TDT6Tt(concurrent
__ _
jurisdiction
r" crr5nEeg~~to~iuvenile courtj county court, and district court over
certain juvenile offendersn
l \
Respectfully,
Clerk 'of the Supreme Court
and Court of Appeals

V-

www.supremecourt.ne.gov

APP

X C

IN THE DISTRICT COURT OF LANCASTER COUNTY, NEBRASKA
DAION J. WILLIAMS,
Petitioner,
vs.
MICHELE WILHEM, Nebraska State
Penitentiary Warden, and SCOTT
FRAKES, Director, Department of
Correctional Services,
Respondents.

)
)
)
)
)
)
)
)
)
)
)
>
;

Case No- Cl 20-591

ORDER
\
•

This matter is before the Court on petitioner's Verified Petition for Writ of
Habeas Corpus pursuant to Neb. Rev. Stat. §§29-2801, et. seq.
The petitioner is currently in the custody of the Nebraska Department of
Correctional

Services.

Petitioner alleges that

his judgment,

sentence and

commitment are absolutely void because the District Court of Douglas County had no
jurisdiction of the parties or the subject matter. The petitioner asserts that all cases
/

against a juvenile shall always begin in Juvenile Court and that the County Court
should not have bound the matter over to District Court without first notifying the
Juvenile Court.

For this proposition, the petitioner relies on Neb. Rev. Stat. §§43-

276, 29-1816 (2)(a), 43-261 and 43-247.

\

This is the petitioner's second application for writ of habeas corpus filed in the
District Court of Lancaster County.

The first application filed at Cl 17-2536 was

heard by the Honorable Judge Darla Ideus. In reviewing that petition, the allegations
set forth therein, and the Court's order, it is clear that the petitioner's second petition
raises issues identical to those raised in his first petition. See order dated July 13,
2018 (attached hereto.)

\

Petitioner's claim is not a jurisdictional defect, so it is not a proper ground for
habeas relief. See Sanders v. Frakes, 295 Neb. 374, 379 (2016) ("[A] writ of habeas
corpus will not lie to discharge a person from a sentence of penal servitude where the
court imposing the sentence had jurisdiction of the offense and the person of the
defendant, and the sentence was within the power of the court to impose."); seb also
V

■_

Peterson v. Houston, 284 Neb. 861, 869 (2012) (mere errors or irregularities in the
proceedings are not grounds for habeas relief.) The Douglas County District Court
had jurisdiction over the offenses and petitioner, and the sentences were within its
power to impose.

See Neb. Rev. Stat. §43-247 (Supp. 2013) (district court and

juvenile court had concurrent jurisdiction over any juvenile who committed a felony).
The petitioner has
not shown by the facts that he is entitled to relief.
/•••
Therefore, the petition for writ of habeas corpus is denied and this matter is
dismissed. A copy of this order is sent to the petitioner.
SO ORDERED.
Dated March

£T,/2020.

BY THE COURT:

u
Andrew R. Jacobsen
District Court Judge

